TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            Internal Revenue Service
                        Diversity Demographics Compare
                     Favorably With Other Federal Agencies’
                        Senior Executive Service Ranks



                                       November 18, 2011

                              Reference Number: 2012-10-006




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-Mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


INTERNAL REVENUE SERVICE                                the IRS SES level had a higher percentage of
DIVERSITY DEMOGRAPHICS COMPARE                          diversity in eight of 12 Office of Personnel
FAVORABLY WITH OTHER FEDERAL                            Management diversity categories. Also, three of
AGENCIES’ SENIOR EXECUTIVE                              the other four diversity categories were
                                                        underrepresented by less than 1 percent.
SERVICE RANKS
                                                        The success the IRS has achieved in its SES
                                                        diversity demographics is the result of key
Highlights                                              diversity practices that have been integrated into
                                                        business processes agency-wide, as well as top
Final Report issued on                                  level executive commitment and support, which
November 18, 2011                                       have established a culture that respects and
                                                        values diversity. However, TIGTA noted that
Highlights of Reference Number: 2012-10-006             these key practices were not formally
to the Internal Revenue Service Deputy                  documented in the IRS’s Equity, Diversity, and
Commissioner for Operations Support and                 Inclusion (EDI) policies and procedures. TIGTA
Deputy Commissioner for Services and                    believes memorializing the IRS’s key diversity
Enforcement.                                            practices in formal internal procedures will help
                                                        ensure that these practices continue to receive
IMPACT ON TAXPAYERS                                     the level of commitment that currently exists, in
                                                        spite of retirements, attrition, or other changes in
Diversity and an inclusive work environment in
                                                        the IRS’s top leadership ranks. In addition, the
the Federal Government’s leadership ranks can
                                                        IRS could benefit by expanding its outreach
be a key organizational component for executing
                                                        efforts to have a more specific focus at the SES
agencies’ missions and can yield greater
                                                        level by participating with professional executive
engagement, productivity, and organizational
                                                        organizations.
performance. The IRS’s Senior Executive
Service (SES) diversity demographic statistics          WHAT TIGTA RECOMMENDED
compare favorably with other Federal agencies’
SES ranks. When agencies recruit and retain a           TIGTA recommended that the Deputy
representative leadership workforce, one that           Commissioner for Operations Support and the
looks like the public that it serves and the            Deputy Commissioner for Services and
workforce it leads, they are enabled to better          Enforcement ensure key SES diversity practices
serve the public.                                       are memorialized within EDI internal guidance
                                                        (policies and procedures). In addition, they
WHY TIGTA DID THE AUDIT                                 should consider partnering with Federal
                                                        professional executive organizations and
This audit was initiated to determine the level of
                                                        communicate the existence of these
diversity in IRS SES appointments and whether
                                                        organizations to employees.
the IRS has an effective strategy that complies
with applicable law and regulations to achieve          IRS management agreed with our
diversity within executive positions. This review       recommendations. The IRS Human Capital
was included in our Fiscal Year 2009 Annual             Office and the Office of EDI plan to review
Audit Plan and addresses the major                      existing written policies and revise them, if
management challenge of Human Capital.                  necessary, to ensure these documents
                                                        accurately capture current practices. In addition,
WHAT TIGTA FOUND                                        the IRS plans to partner with external executive
The IRS’s diversity demographic statistics              and professional organizations and
compare favorably with other Federal agencies’          communicate this information to all employees.
SES ranks. For example, in Fiscal Year 2009,
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         November 18, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT



 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’ Senior Executive
                             Service Ranks (Audit # 200910003)

 This report presents the results of our review to determine the level of diversity in the Internal
 Revenue Service (IRS) Senior Executive Service appointments and whether the IRS has an
 effective strategy that complies with applicable laws and regulations to achieve diversity within
 executive positions. This audit was conducted as a part of our Fiscal Year 2009 Annual Audit
 Plan and addresses the major management challenge of Human Capital.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                  Internal Revenue Service Diversity Demographics
                                  Compare Favorably With Other Federal Agencies’
                                           Senior Executive Service Ranks




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service’s Senior Executive
          Service Demographics Compare Favorably With
          Other Federal Agencies................................................................................. Page 4
          Senior Executive Service Diversity Demographic
          Achievements Are the Result of the Integration of
          Diversity Practices Into Business Processes
          Agency-Wide and Top Level Support .......................................................... Page 7
                    Recommendation 1:........................................................ Page 12

          The Internal Revenue Service Can Leverage Efforts
          in Promoting Diversity at the Senior Executive Service
          Level by Partnering With Professional Executive
          Organizations ................................................................................................ Page 12
                    Recommendations 2 and 3: .............................................. Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Management’s Response to the Draft Report ...................... Page 21
         Internal Revenue Service Diversity Demographics
         Compare Favorably With Other Federal Agencies’
                  Senior Executive Service Ranks




                  Abbreviations

CDP         Candidate Development Program
EDI         Equity, Diversity and Inclusion
EEO         Equal Employment Opportunity
ERB         Executive Resources Board
FY          Fiscal Year
HCO         Human Capital Office
IRS         Internal Revenue Service
MD-715      Management Directive 715
OPM         Office of Personnel Management
SES         Senior Executive Service
                             Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’
                                      Senior Executive Service Ranks




                                            Background

The Internal Revenue Service (IRS), along with the rest of the Federal Government, is facing
new and more complex challenges in the 21st Century because of long-term fiscal constraints,
changing demographics, preparation for an increased number of retirements, and other factors.
Senior Executive Service (SES)1 members are critical to providing the strategic leadership
needed to effectively meet these challenges. In Calendar Year 2010, the IRS had more than
250 SES appointments, of which approximately 62 percent are eligible to retire within the next
three fiscal years.2 Diversity and an inclusive work environment in the Federal Government’s
leadership ranks can be a key organizational component for executing the agencies’ missions and
can yield greater engagement, productivity, and organizational performance.
Historically, Federal diversity initiatives have focused on equal employment opportunity (EEO)3
and affirmative employment.4 EEO, by law and statute, exists both in the public and private
sectors to ensure that all persons are afforded equal opportunity in personnel procedures and
decisions affecting them in the workplace. However, diversity, while not mandated by law and
not punishable when neglected or overlooked, is both desirable and critical if an employer
wishes to benefit from the many skills, life experiences, and unique natures that each person
brings to the workplace. Diversity now means different things to different Federal agencies,
organizations, and people and can encompass the mindset and climate of an organization. The
IRS defines diversity as:
        The collective mixture of differences and similarities employees and customers possess.
        Generally, the differences we recognize first about each other are race, gender, and age.
        Diversity goes beyond those obvious differences to recognize other differences among us
        such as mental/physical abilities, religious beliefs, sexual orientation, thinking style,
        geographical location, education, functional area, and personality type, as well as
        similarities.



1
  The SES is comprised of the men and women charged with leading the continuing transformation of the Federal
Government. This dedicated corps of executives shares a commitment to public service and a set of democratic
values grounded in the fundamental ideals of the Constitution. As the leaders of our Federal civilian workforce,
Senior Executives strive each day to create a more citizen-centered, results-oriented Federal Government.
2
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
3
  EEO embodies the principle of fair treatment in Federal employment and personnel matters without regard to race,
color, sex, religion, national origin, age, or physical or mental disability.
4
  Affirmative employment was first established by the Federal Government in 1965. This legal mandate consists of
special actions in recruitment, hiring, and other areas designed to eliminate the effects of past discrimination.
                                                                                                          Page 1
                              Internal Revenue Service Diversity Demographics
                              Compare Favorably With Other Federal Agencies’
                                       Senior Executive Service Ranks



The business case5 for leveraging diversity has two significant elements. First, the labor and
talent market has become increasingly competitive. The IRS must use every available source of
potential applicants to ensure it has the high-quality workforce that it needs to deliver its mission
to the taxpayer. If the IRS fails to take steps to recruit among the full range of the diverse labor
market, it is missing a strategic opportunity. Second, the changing demographics of America
mean that taxpayers served by the IRS are also changing. When agencies recruit and retain a
representative workforce, one that looks like the public that it serves, and when individual
differences are respected, appreciated, and valued, diversity becomes an organizational strength
that contributes to achieving mission performance and results. Diversity also enables the IRS to
better serve the taxpayer by reflecting the customers and communities it serves.
Federal laws govern the employment practices of qualified entities in the consideration of
diversity. Title VII of the Civil Rights Act of 19646 generally makes it unlawful to discriminate
in matters of employment based on race, color, national origin, sex, and religion. Additionally,
preferential treatment is not to be granted due to existing underrepresentation within an
organization. The IRS must abide by the requirements of Title VII in the development and
operation of its training and employment practices. In addition, the IRS is required by the EEO
Commission Management Directive 715 (MD-715)7 to report annually on the status of activities
undertaken pursuant to its EEO program. The annual IRS MD-715 report must also include a
plan that sets forth steps the IRS will take in the future to correct deficiencies or further improve
efforts undertaken pursuant to the directive.
The Executive Resources Board (ERB) is responsible for all executive resources and establishes
all IRS policies associated with career appointments related to SES and Senior-Level8 positions.
ERB members are appointed by the IRS Commissioner and are accountable to the Commissioner
through the ERB Chairman. The ERB meets monthly and discusses issues related to identifying
interview panels and selecting Candidate Development Program (CDP)9 applicants, filling SES
vacancies, and monitoring the mobility of SES appointments. The ERB collectively makes
decisions on the outcome of these events.

5
  A business case captures the reasoning for initiating a project or task. It is often presented in a well-structured,
written document, but may also sometimes come in the form of a short verbal argument or presentation.
6
  Pub. L. No. 88-352, Title VII.
7
  This Directive provides policy guidance and standards for establishing and maintaining effective affirmative
programs of EEO under Section 717 of Title VII (PART A) and effective affirmative action programs under
Section 501 of the Rehabilitation Act (PART B). The Directive also sets forth general reporting requirements
(PART C).
8
  Senior-Level positions are classified above GS-15. The work of the position does not meet SES criteria nor does it
involve the fundamental research and development responsibilities that are characteristic of Scientific and
Professional positions.
9
  The SES CDP is the principal means through which the IRS seeks to identify and hire career executives. The CDP
provides selected applicants the opportunity to work with a diverse, knowledgeable, and highly skilled workforce.
The Program consists of formal training and developmental assignments. Its purpose is to identify outstanding
persons with demonstrated leadership competencies and to prepare them for SES positions.
                                                                                                              Page 2
                            Internal Revenue Service Diversity Demographics
                            Compare Favorably With Other Federal Agencies’
                                     Senior Executive Service Ranks



To gain an understanding of the overall IRS organizational posture toward diversity (staff, feeder
group,10 and SES levels), we met with the Deputy Commissioners for Operations Support and
Services and Enforcement and interviewed some business unit Commissioners (Small Business/
Self-Employed Division, Wage and Investment Division, and Large Business and International
Division), the Chief Technology Officer, the IRS Human Capital Officer, the IRS ERB
Chairman, and the Executive Director of the Office of Equity, Diversity, and Inclusion (EDI).
To determine how the IRS is currently positioned in terms of a diverse SES cadre, we evaluated
the IRS SES workforce against the 12 diversity demographic categories that the Office of
Personnel Management (OPM) tracks for the Federal Government workforce. We were unable
to compare any other diversity aspects outside of race, gender, and disability because the
statistical data OPM tracks and provided to us did not include any other diversity aspects.
This review was performed at various program offices in Washington, D.C., within the National
Headquarters of the IRS Human Capital Office (HCO); the Office of Equity, Diversity, and
Inclusion; the Modernization and Information Technology Services organization; and the Large
Business and International, Small Business/Self-Employed, and Wage and Investment Divisions.
In addition, this review was performed in the Wage and Investment Division program office
located in Atlanta, Georgia. We conducted this performance audit during the period
November 2009 through August 2011 and performed it in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




10
  The feeder group is comprised of GS-13, GS-14, and GS-15 grade levels and provides advancement opportunities
not only to the next grade level but also potentially to career SES appointments.
                                                                                                       Page 3
                          Internal Revenue Service Diversity Demographics
                          Compare Favorably With Other Federal Agencies’
                                   Senior Executive Service Ranks




                                  Results of Review

The IRS’s diversity demographic statistics compare favorably with other Federal agencies’ SES
ranks. For example, in Fiscal Year (FY) 2009, the IRS SES level had a higher percentage of
diversity in eight of 12 Office of Personnel Management diversity categories. Also, three of the
other four diversity categories were underrepresented by less than 1 percent. The success the
IRS has achieved in its SES diversity demographics is the result of key diversity practices that
have been integrated into business processes agency-wide, as well as top level executive
commitment and support, which have established a culture that respects and values diversity.
However, we noted that the IRS Office of EDI does not have formal policies and procedures that
document these practices. Finally, the IRS could benefit by expanding its outreach efforts to
have a more specific focus at the SES level by participating with professional executive
organizations.

The Internal Revenue Service’s Senior Executive Service
Demographics Compare Favorably With Other Federal Agencies
We reviewed OPM data on diversity categories to compare several demographic factors
(workforce categories) to evaluate diversity at the IRS SES level. Based on the data in Figure 1
below, the IRS is exceeding the Federal Government as a whole in placing more females in
executive positions at the SES level.
                      Figure 1: Gender Comparison of Federal SES
                       and IRS SES Workforce for Fiscal Year 2009




        Source: Federal data – Office of Personnel Management – FY 2009 Federal Equal Opportunity
        Recruitment Program. IRS data – IRS Employee Master Database.

                                                                                                    Page 4
                             Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’
                                      Senior Executive Service Ranks



Figure 2 and Figure 3 below show the demographic comparisons of the Federal SES to the IRS
SES levels for FY 2004 and FY 2009, respectively. Looking at Figure 2 and Figure 3 together,
we identified changes that have occurred in the demographic groups over the six-year period.
For example, the IRS SES level has increased from seven of 12 OPM diversity categories having
a higher percentage of diversity than the Federal SES in FY 2004 to eight of 12 OPM diversity
categories in FY 2009. In addition, three of the other four diversity categories in FY 2009 were
underrepresented by less than 1 percent in comparison with the other Federal agencies’ SES
ranks.
                     Figure 2: Demographic Comparison of Federal SES
                         and IRS SES Workforce for Fiscal Year 2004




FY 2004                             WM     WF     BM    BF    HM     HF    AM     AF    NM     NF    TDM TDF
Government-Wide            Total     %     %       %    %      %     %      %     %      %     %      %   %

IRS SES Level              274      50.4   28.1   9.8   4.7   2.2    0.4   2.2    1.1   0.0    0.7    0.0     0.4

FED SES Level              7,093    63.3   21.5   4.8   3.3   2.4    0.9   1.4    0.7   0.9    0.4    0.3     0.1

IRS Above FED SES                           X     X     X                   X     X            X               X

IRS Below FED SES                    X                         X     X                   X             X
Source: Federal data – Office of Personnel Management – FY 2004 Federal Equal Opportunity Recruitment
Program. IRS data – IRS Employee Master Database.
Legend:
WM – White Male, WF – White Female                  AM – Asian/Pacific Male, AF – Asian/Pacific Female
BM – Black Male, BF – Black Female                  NM – Native American Male, NF – Native American Female
HM – Hispanic Male, HF – Hispanic Female            TDM – Targeted Disabled Male, TDF – Targeted Disabled Female


                                                                                                            Page 5
                           Internal Revenue Service Diversity Demographics
                           Compare Favorably With Other Federal Agencies’
                                    Senior Executive Service Ranks



                   Figure 3: Demographic Comparison of Federal SES
                       and IRS SES Workforce for Fiscal Year 2009




FY 2009                          WM      WF     BM    BF    HM    HF    AM    AF    NM    NF    TDM     TDF
Government-Wide          Total    %      %       %    %      %    %      %    %      %    %      %       %
IRS SES Level            252      40.8   34.1   9.1   5.6   2.8   2.0   3.2   1.6   0.0   0.4   0.0     0.4

FED SES Level            7,726    58.6   24.1   5.0   4.0   2.7   1.0   1.7   1.1   0.8   0.5   0.4     0.1

IRS above FED SES                         X     X     X     X     X     X     X                          X
IRS below FED SES                  X                                                X     X      X
Source: Federal data – Office of Personnel Management – FY 2009 Federal Equal Opportunity Recruitment
Program. IRS data – IRS Employee Master Database.

Comparing Figure 2 with Figure 3, the demographic group percentages for Native American
Male and Targeted Disabled Male have not improved. In addition, over the six-year period, the
number of IRS SES-level majority demographic White Male has decreased from 50.4 percent in
FY 2004 to 40.8 percent in FY 2009. This represents a decrease of approximately 10 percent in
White Males at the IRS SES level. In contrast, the number of majority demographic White
Males at the Federal SES level decreased from 63.3 percent in FY 2004 to 58.6 percent in
FY 2009. This represents a decrease of 4.7 percent in White Males at the Federal SES level. As
a result of the significant decrease in the percentage of White Males at the IRS SES level, there
has been an overall increase in the IRS’s other demographic categories at the SES level
compared with the Federal Government as a whole.



                                                                                                      Page 6
                             Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’
                                      Senior Executive Service Ranks



Senior Executive Service Diversity Demographic Achievements Are
the Result of the Integration of Diversity Practices Into Business
Processes Agency-Wide and Top Level Support
The success the IRS has achieved in its SES diversity demographics are the result of diversity
practices that have been integrated into business processes agency-wide and top level executive
commitment and support. When viewed collectively, the IRS has undertaken a broad approach
to diversity designed to achieve a workforce that represents the taxpayers that it serves and to
recognize the importance of diversity in the IRS’s business goals and objectives.
The IRS has instituted several key practices that have contributed to the IRS’s progress in and
achievement of higher percentages of SES diversity in many of the OPM demographic categories
and in establishing a culture that respects and values diversity within the workforce. These
practices include:
     •   Cultivating a diverse workforce. The IRS believes that in order to accomplish its
         mission, the IRS must cultivate the workforce of tomorrow, in part by providing a
         working environment characterized by equity, diversity, and inclusion. The IRS sees the
         diversity of its workforce as a business imperative that is woven into the culture and
         structure of the organization. In addition, the IRS Strategic Plan 2009–2013 includes
         diversity as an essential element in building a robust workforce.
     •   Diversity strategic planning. The IRS believes that a comprehensive diversity strategy
         must continually examine and work towards greater diversity at all organizational levels
         to impact diversity at the SES level. The IRS believes that if it strives for diversity at the
         staff entry level, it should carry through as the staff progress and reach the feeder group
         level and should result in a diverse group of applicants within the IRS from which to
         select for executive initiatives. The IRS’s efforts to achieve a diverse feeder pool11 for its
         various leadership programs12 and SES level positions focus on outreach and recruitment
         to diversify the applicant pool, maintaining a selection process that ensures equal
         employment opportunity by not making demographic-based decisions, and using an
         objective methodology for rating, ranking, and interviewing applicants for leadership
         programs and developmental assignments.



11
   The IRS has an intentional outreach and recruitment plan that is linked to the workforce data to ensure it is
targeting areas of underrepresentation. This recruitment plan is formulated annually and adjusted to the shifting
workforce demographics. The Office of EDI collaborates with the IRS Recruitment Office to develop a workforce
data-driven Annual Diversity Recruitment Plan and a corresponding Annual Media Plan.
12
   Examples of IRS various leadership programs would include the Frontline Leadership Readiness Program,
Department Manager Readiness Program, Senior Manager Readiness Program, Executive Readiness Program, and
Candidate Development Program.
                                                                                                           Page 7
                             Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’
                                      Senior Executive Service Ranks



     •   Top level commitment, involvement, and accountability. The IRS’s diversity strategy
         has the support of the IRS Commissioner and business unit executives. For example, the
         Commissioner’s annual EEO Policy statement asserts:
                  I am convinced that the unique attributes of each employee offer incalculable
                  benefits to our organization. Therefore, I am committed to not only creating a
                  working environment that is free from discrimination and other barriers to full
                  participation, but also welcomes people from all backgrounds, and reflects the
                  taxpaying public we serve. Join me in these efforts to further our objective to
                  make the IRS the best place to work in government.
     •   Performance measures and goals. Some of the IRS business units have reported on
         actions taken and progress made on diversity initiatives.13 The business units are required
         to submit quarterly MD-715 template updates on their diversity initiatives in the MD-715
         action plan, which provides executive level accountability for diversity actions. This
         report assists with the preparation of the IRS MD-715 report, and it also encourages a
         focus on the business unit diversity initiatives throughout the year.
     •   Top level Office of EDI. The Office of EDI Director reports directly to the IRS
         Commissioner, briefs the IRS Commissioner quarterly on diversity issues, and is also a
         voting member of numerous IRS executive boards, such as the ERB, Human Capital
         Advisory Council, Human Capital Board, Section 1203 Review Board, and Performance
         Review Board.
         The Office of EDI oversees the collection and tracking of the IRS’s progress toward
         diversity at all grade levels and this information is reported in the annual MD-715 report.
         Each business unit within IRS has an EDI business unit director that reports directly to
         their respective chief or commissioner. EDI business unit directors primarily work on
         EEO and diversity related activities within the business unit and prepare the annual
         MD-715 report submission for their business unit for inclusion in the IRS MD-715 report.
         In addition, the Office of EDI has established monthly “contributor meetings”14 among
         the various EDI and HCO units that perform related work to increase accountability and
         to ensure a cohesive, consistent corporate approach to the IRS’s efforts and activities
         pertaining to the MD-715. The monthly meetings are used to provide guidance and
         coordination, share best practices, and ensure consistent reporting.




13
   The Small Business/Self-Employed and Wage and Investment Divisions have reported in their Business
Performance Reports actions taken and progress made on their diversity initiatives.
14
   Contributor’s Meetings provide guidance and coordination, share best practices, and ensure consistent reporting in
the MD-715 among representatives from the various HCO and EDI units who participate in these monthly meetings.
                                                                                                             Page 8
                             Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’
                                      Senior Executive Service Ranks



Historical view of diversity initiatives
Prior to FY 2009, the IRS placed more emphasis on EEO compliance (assuring that
discrimination based on race, age, gender, and disability does not occur) and properly reporting
on EEO Commission initiatives through MD-715 than it placed on achieving a diverse
workforce. However, in August 2009, the IRS began its initiative to address the absence of a
diversity strategic plan and committed resources to its diversity efforts with the selection of a
permanent Executive Director for the Office of EDI and the filling of staff vacancies within that
office. The Office of EDI establishes the strategic diversity direction for the IRS, including the
SES level, and the Director, EDI, is responsible for ensuring IRS-wide consistency in
implementing the IRS diversity initiatives. The Office of EDI also develops diversity policy and
approaches to attract, develop, and retain a talented diverse workforce and ensure diversity is
infused within leadership succession, recruitment and retention initiatives, and leadership
development programs.
In early FY 2010, the Office of EDI drafted the IRS’s first EDI Strategic Plan for FY 2010–2015
with the intention to parallel the OPM’s Federal Government-wide Diversity Strategic Plan.
However, toward the end of FY 2010, OPM had not yet issued its plan, so the IRS issued the
EDI Strategic Plan on September 16, 2010, which addresses diversity across the IRS. The
EDI Strategic Plan was developed corporately by members of the EDI community, business unit
executives, the IRS HCO, and General Legal Services.15
Within the EDI Strategic Plan, the IRS has outlined several planned strategies at the SES level
that align with one of its corporate priorities, which is to attain diverse representation at the SES
level. For example, within goal one of the strategic plan, the Office of EDI plans to:
     •   Monitor the SES CDP and other IRS leadership program applicant selection processes to
         ensure equal opportunity.
     •   Collaborate with the IRS HCO to develop a diversity-focused marketing/outreach plan to
         market SES CDP and other leadership programs.
     •   Partner with the IRS HCO, the Office of Program Evaluation and Risk Analysis, and the
         Functional/Business Operating Divisions EEO Director (currently renamed Equity,
         Diversity, and Inclusion) offices to analyze workforce demographics that will help
         identify and eliminate barriers in order to achieve full participation in all levels within the
         IRS.
     •   While not specifically focused at the SES level, the IRS plans to partner and collaborate
         with community organizations, public and private agencies, affinity groups, professional
         associations, and educational institutions to promote recruitment of and outreach to

15
  The EDI Strategic Plan was also shared IRS-wide and the Office of EDI has plans to prepare an annual report on
the progress toward achieving the plan’s goals and objectives.
                                                                                                          Page 9
                              Internal Revenue Service Diversity Demographics
                              Compare Favorably With Other Federal Agencies’
                                       Senior Executive Service Ranks



         targeted populations. These planned strategies outline the IRS’s strategic focus on
         diversity outreach IRS-wide and with leadership development programs that provide
         advancement to the SES level.
The IRS FY 2009 MD-715 report discussed two triggers:16 (1) low participation rates of persons
with targeted disabilities, as compared to the EEO Commission’s Federal goal of 2 percent, and
(2) low participation rates of Hispanic males, as compared to the civilian labor force. We
evaluated the IRS FY 2009 MD-715 report and, while it addressed the two underrepresented
categories listed above, it included only one action plan that addressed underrepresentation at the
SES level, specifically a plan to eliminate underrepresentation of Hispanic males. The IRS
explained that the balance of its underrepresented groups (e.g., persons with a targeted disability)
would be met if only one or two employees in this category were hired or promoted to the SES
level, thus the development of action plans within the MD-715 are focused on the most
significant areas of underrepresentation. Therefore, specific actions plans for persons with
targeted disabilities at the SES were not included in the FY 2009 MD-715 report.
Business unit diversity initiatives
The business unit Commissioners shared with us their individual perspective, approach, and
commitment to ensure diversity agency-wide. They also shared some of the ongoing diversity
initiatives they have underway within their business units.
     SES level:
         •   The Wage and Investment Division, Small Business/Self-Employed Division, and
             Modernization and Information Technology Services organization have established
             individual ERBs that provide a forum to address diversity in the respective business
             units.
         •   The Wage and Investment Division performed a diversity assessment in its Senior
             Management Readiness program and established an awards program that recognizes
             outstanding achievement in EEO and diversity.
         •   The Wage and Investment Division, Small Business/Self-Employed Division, Large
             Business and International Division, and Modernization and Information Technology
             Services organization include the unit’s EEO and Diversity Director at some or all of
             the unit ERB meetings to provide information such as current workforce demographic
             data.




16
  A trigger is information that alerts the agency to a possible barrier. Triggers require additional investigation or
scrutiny to determine if a barrier exists. Triggers are commonly referred to as “red flags.”
                                                                                                               Page 10
                             Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’
                                      Senior Executive Service Ranks



     Organization wide:
        •    The Large Business and International Division instituted a diversity council whose
             goal is to identify strategic trends and issues related to EEO, diversity, and inclusion.
        •    The Modernization and Information Technology Services organization had a diversity
             study performed by an outside consulting firm. An assessment of the historical and
             contemporary working conditions along with recommendations was made for the
             entire organization.
        •    The Small Business/Self-Employed Division created a diversity and EEO advisory
             committee that identifies issues, trends, and actions to encourage and support an
             inclusive and diverse workforce.
The IRS has devoted significant efforts to develop a culture that embraces diversity at all levels.
In addition, since FY 2009, the IRS has been developing and implementing diversity practices
discussed above in order to implement the EDI strategic plan.17 We believe memorializing the
IRS’s key diversity practices in formal internal procedures will help ensure they continue to
receive the level of commitment that currently exists, in spite of retirements, attrition, or other
changes in the IRS’s top leadership ranks. If the level of commitment and accountability at the
top levels were to lessen or to focus on different issues, the progress on diversity initiatives may
experience delays. For example, if a decision was made in the future to change the quarterly
Business Process Review or MD-715 progress reports to semiannual or annual progress reports,
or if the Director, EDI, no longer reported to the IRS Commissioner or was no longer a voting
member on the various executive boards, the ability of the Office of EDI to drive diversity
efforts across the IRS would be lessened. Other Federal agencies who may want to adopt some
of the IRS’s diversity practices to improve diversity in their SES or feeder pool levels would
need to ensure they adopted the key elements that support and build on the other elements. For
example, if other agencies developed an EDI Strategic Plan but did not have quarterly reporting
to the Office of EDI Director on the progress of the various diversity initiatives or did not have
the accountability at the Deputy Commissioner level, they may not achieve the level of progress
that the IRS has achieved in its SES diversity.




17
  In addition to the EDI Strategic Plan, Corporate Priorities, and the annual MD-715 reports, the IRS advised us it
has developed several other approaches for addressing diversity at all levels of the IRS, including the SES level.
Some of these practices are documented in the Federal EEO Recruitment Plan; the IRS Recruitment Office Strategic
Recruitment Plan; the IRS Plan for Recruitment, Hiring, and Retention of Individuals With Disabilities/Targeted
Disabilities; and the IRS Recruitment Office Communication Strategy.
                                                                                                          Page 11
                         Internal Revenue Service Diversity Demographics
                         Compare Favorably With Other Federal Agencies’
                                  Senior Executive Service Ranks



Management Actions:
During the conduct of our audit, the IRS advised us of additional diversity efforts it had begun
which address several of the observations we made. For example, the IRS’s FY 2010 MD-715
report issued in February 2011 includes an objective to increase the diversity of the SES so that it
is reflective of the workforce it leads by ensuring that:
   •   Transparency exists in SES selections.
   •   The IRS engages in long-term succession planning that incorporates diversity
       management as a guiding principle.
   •   The IRS creates clear benchmarks for diverse outreach and recruitment strategies to
       attract a highly qualified candidate pool to the SES and feeder groups.
   •   The IRS creates a comprehensive strategy to recruit and retain persons with targeted
       disabilities at all levels of leadership.
   •   Factors such as work-life balance and unconscious bias are not impeding the rise of
       qualified women to the executive level.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should ensure that the IRS’s key diversity practices
are memorialized within EDI internal guidance (policies and procedures).
       Management’s Response: The IRS Human Capital Office and the Office of EDI
       will partner to review existing written policies and revise them, if necessary, to ensure
       these documents accurately capture current practices.

The Internal Revenue Service Can Leverage Efforts in Promoting
Diversity at the Senior Executive Service Level by Partnering With
Professional Executive Organizations
Partnering with professional executive organizations could help enhance diversity at the SES
level within the IRS. The current IRS executive outreach practices with professional
organizations have been focused on participating at the Internal Annual Conferences of
agency-wide employee organizations (such as the Association for the Improvement of
Minorities, Asian Pacific American IRS Employees, Hispanic IRS Employees, the IRS Deaf




                                                                                           Page 12
                             Internal Revenue Service Diversity Demographics
                             Compare Favorably With Other Federal Agencies’
                                      Senior Executive Service Ranks



Empowerment and Advocacy Forum, and the Visually Impaired Employees Workforce).18
These conferences involve all levels of employees and have been used as a platform to promote
diversity, help employees address challenges in progressing up their career ladder, and increase
the amount of interest of those aspiring to reach the senior management and SES levels.
Although the IRS has focused its attention on diversity outreach practices agency-wide, the IRS
could benefit by expanding these efforts to have a more specific focus at the SES level by
participating with professional executive organizations.
We spoke to representatives of several Federal Government executive organizations19 to discuss
some of the efforts those organizations are making to assist their members in becoming
executives, and also to get their perspective on how well the Federal Government is promoting a
diverse workforce. These organizations have established partnerships with Federal agencies
where their members are invited to agency events to discuss the organization’s progress in
establishing relationships with Federal agencies, activities associated with their mentoring
program, and diversity issues faced by their members. Representatives of these organizations
told us Federal agencies face several challenges in promoting diversity.
First, they were concerned with how Federal agencies define diversity within each agency,
stating that Federal agencies need to think more robustly about diversity than in just racial and/or
ethnic terms. The results of this audit show that the IRS already thinks of diversity in
comprehensive terms.
A second challenge identified by the executive organization representatives is that Federal
agencies need to simplify hiring processes by reducing the time it takes to select and bring a new
executive on board. A representative stated that in many cases, it has taken up to one year before
a qualified candidate is hired. Top-level executive prospects generally will not be able to wait
long periods of time when deciding whether to accept a job offer. Further, a concern that these
executive organizations have with Federal agencies is the lack of accountability to ensure that
diversity efforts are measured and enforced. For example, one representative stated that Federal
agencies should ensure that managers are held accountable for promoting diversity and those
who encourage diversity efforts should be recognized through performance ratings and bonuses.



18
   The Association for the Improvement of Minorities educates and develops members to their fullest career and
personal potential free from negative influence and discriminatory policies and practices; Asian Pacific American
IRS Employees helps to foster opportunities for professional development and personal growth for members;
Hispanic IRS Employees prepares its members for the future; Deaf Empowerment and Advocacy Forum strives for
a fully integrated, accessible workforce for the deaf and hard of hearing; and the Visually Impaired Employees
Workforce improves the quality of visually impaired employees’ daily workplace experience and environment.
19
   These professional organizations include the National Association of Hispanic Federal Executive, the African
American Federal Executive Association, the Senior Executive Association, and the Asian American Government
Executive Network. In general, the purpose of these organizations is to sponsor programs that enhance
opportunities for members to serve our Nation in senior-level Government positions.
                                                                                                         Page 13
                         Internal Revenue Service Diversity Demographics
                         Compare Favorably With Other Federal Agencies’
                                  Senior Executive Service Ranks



The IRS could benefit from expanding its participation with professional executive
organizations. Because these are executive-level organizations, they may provide a broader
focus and exposure for executive-level applicants. For example, these voluntary organizations
offer services from mentoring members who aspire to become executives to hosting conferences
and seminars that provide current and future Federal executives with updated skills and
information needed for effective and efficient leadership in the Federal Government.
The IRS HCO should take the opportunity to advise employees of the existence of the various
professional executive organizations. Interested employees could then determine whether these
organizations could assist in their self-development efforts toward the SES level. In addition, if
the IRS expanded its relationships with professional executive organizations, it could create
opportunities for the IRS to recruit external diverse applicants into the IRS’s executive
recruitment initiatives, thereby further expanding its diverse applicant pool. Finally, expanding
its relationships with professional executive organizations would allow the IRS to gain additional
insight on the diversity issues confronting the executive community.

Recommendations
Recommendation 2: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should consider partnering with Federal
professional executive organizations to gain additional insight on diversity issues in the Federal
executive community, identify mentoring practices, and use these partnerships as a tool to recruit
executive applicants.
       Management’s Response: The IRS concurs with this recommendation that
       partnering with external stakeholders like professional organizations is a good practice
       and will continue to foster existing partnerships and begin new ones with these types of
       organizations. The IRS stated that on September 27, 2011, it reached out to five Federal
       Executive Associations and plans to extend its efforts to an additional 40 executive and
       professional associations in FY 2012.
Recommendation 3: The IRS Human Capital Office should consider ways to communicate
to employees the existence of professional executive organizations that may assist employees in
their self-development efforts toward higher level and SES positions.
       Management’s Response: The IRS will communicate to all employees about the
       external organization with which it partners. The communication will include links to
       various external organizations to promote increased awareness.




                                                                                          Page 14
                         Internal Revenue Service Diversity Demographics
                         Compare Favorably With Other Federal Agencies’
                                  Senior Executive Service Ranks



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the level of diversity in the IRS SES
appointments and whether the IRS has an effective strategy that complies with applicable laws
and regulations to achieve diversity within executive positions. To accomplish our objective,
we:
I.     Identified and summarized all applicable guidance, standards, and procedures regarding
       SES diversity and determined whether the IRS’s strategy was compliant.
       A. Identified and summarized all applicable IRS and Government-wide policies,
          procedures, and requirements the IRS is required to comply with regarding SES
          diversity.
       B. Determined whether the IRS’s strategy is compliant with all applicable guidance and
          standards.
II.    Determined the purpose of the ERB and whether it ensures diversity is achieved at the
       SES level.
       A. Interviewed key representatives of the ERB and:
           1. Determined the roles and responsibilities of the ERB.
           2. Determined how the board defines diversity and how it is applied in its SES and
              senior-level recruiting strategy.
           3. Determined the recruiting and selection process for CDP and SES appointments.
              (a) Determined who on the board is involved with the recruiting process.
              (b) Obtained a copy of the recruiting and selection procedures for CDP and SES
                  appointments and determined their impact on diversity.
              (c) Determined whether the recruitment and selection processes are compliant
                  with the policy of the IRS Office of Civil Rights, Diversity, and EEO.
              (d) Determined the ERB’s outreach efforts to promote and encourage diversity in
                  the CDP.
           4. Determined whether the ERB has a strategic plan for SES initiatives.
           5. Determined whether there are specific criteria to prioritize diversity issues to be
              placed on the agenda and discussed at the ERB meetings.

                                                                                           Page 15
                        Internal Revenue Service Diversity Demographics
                        Compare Favorably With Other Federal Agencies’
                                 Senior Executive Service Ranks



       B. Obtained agendas and key decisions made as they relate to diversity and determined
          how often diversity is discussed and what decisions have been made at the ERB
          meetings.
       C. Identified the number of SES appointments that will be eligible to retire within the
          next three years.
III.   Determined the role of the IRS Human Capital Officer in ensuring diversity at the SES
       level.
       A. Interviewed the IRS Human Capital Officer and determined the HCO’s role and
          responsibility for assisting the IRS in ensuring diversity at the SES level.
       B. Obtained and reviewed policies, guidance, publicity, or other documents issued by the
          HCO to carry out its role and responsibility.
       C. Determined whether the IRS Human Capital Officer provides any input to the annual
          MD-715 report.
IV.    Determined the purpose of the IRS Headquarters Office of EDI and the headquarters
       EEO and Diversity Director and how they are providing oversight at the SES level to
       ensure diversity.
       A. Interviewed the IRS Executive Director, Headquarters Office of EDI, and determined
          the process used to solicit information to be included in the annual MD-715 report.
          We also determined whether the Office of EDI solicits information from the ERB for
          the annual MD-715 report regarding barriers associated with SES initiatives.
       B. Interviewed the headquarters EEO and Diversity Director and determined:
          1. The level of involvement with SES initiatives.
          2. The interaction between the headquarters EEO and Diversity Director and the
             embedded business unit EEO and Diversity Directors.
          3. The type of outreach conducted to attract potential applicants into the executive
             development programs (i.e., CDP).
          4. Whether the embedded business unit EEO and Diversity Directors’ input to the
             annual MD-715 report includes identifying barriers related to SES initiatives.
       C. Determined the roles and responsibilities of the headquarters EEO and Diversity
          Director as they relate to ensuring diversity at the SES level.
       D. Selected and interviewed three embedded business unit EEO and Diversity Directors
          (Modernization and Information Technology Services organization, Small Business/
          Self-Employed Division, and Wage and Investment Division) and determined the
          level of their involvement with SES initiatives and diversity at the SES level.

                                                                                         Page 16
                              Internal Revenue Service Diversity Demographics
                              Compare Favorably With Other Federal Agencies’
                                       Senior Executive Service Ranks



V.       Determined whether the IRS’s strategy is effective in tracking its progress in achieving
         SES diversity initiatives.
         A. Interviewed key representatives of the ERB and determined whether:
             1. The ERB has established a tracking methodology to develop and assess its SES
                diversity initiatives.
             2. The ERB has developed and implemented policies and procedures that are
                consistent in providing oversight and accountability over its SES initiatives and
                whether such policies and procedures are consistent with the ERB’s strategy to
                promote diversity in its SES program.
         B. Determined whether the ERB has identified certain benchmarking standards
            consistent with average statistics related to other Federal agencies by race, gender,
            age, and targeted disabilities1 to ensure fair and equal representation in the SES ranks.
         C. Contacted the HCO and obtained statistical information from FY 2004 through
            FY 2009 on the IRS’s SES and feeder groups’ demographic make-up by race, gender,
            and targeted disabilities. We reviewed these reports and performed a comparative
            analysis with the United States workforce statistics and determined whether there are
            any significant trends.
         D. Contacted the OPM and obtained statistical information from FY 2004 through
            FY 2009 on other Federal agencies’ SES demographic make-up by race, gender, and
            targeted disabilities. We reviewed these reports and performed a comparative
            analysis with IRS statistics and determined whether there are any significant trends.
VI.      Determined the progress of the IRS strategy to eliminate barriers related to diverse
         underrepresentation in its developmental programs and SES appointments.
         A. Interviewed key representatives of the ERB and determined whether the ERB reports
            on SES initiatives in the annual MD-715 report, the reporting process, and the
            initiatives that have been reported.
         B. Interviewed key representatives of the ERB and determined whether any challenges
            have occurred related to recruiting and hiring a diverse group of applicants into the
            executive development programs (i.e., CDP, Executive Readiness) or making SES
            appointments.




1
 Targeted disabilities refers to individuals that have deafness, blindness, paralysis, missing extremities, convulsive
disorders, distortion of limbs or spine, mental illness, or mental retardation.
                                                                                                              Page 17
                         Internal Revenue Service Diversity Demographics
                         Compare Favorably With Other Federal Agencies’
                                  Senior Executive Service Ranks



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the ERB practices in executing SES
initiatives, the annual MD-715 reporting, and the organizational “control environment” or “tone
at the top” of management’s attitude, awareness, and actions relative to SES diversity initiatives.
We evaluated these controls by reviewing documentation and interviewing management
executives and staff employees.
Validity and reliability of data from computer-based systems
We obtained demographic data on IRS employees from the Office of Program Evaluation and
Risk Analysis for the time period FY 2004 through FY 2009. The source of the data was the
Employee Master Database. To verify the reliability of the data, we performed some queries to
test whether the data were complete. We determined that from a total of 25,416 records
obtained, 15 of the records had no more than two fields missing. We determined this number
was not material to our data validity and subsequently dropped them from our analysis.




                                                                                           Page 18
                      Internal Revenue Service Diversity Demographics
                      Compare Favorably With Other Federal Agencies’
                               Senior Executive Service Ranks



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia Mrozowski, Director
John Ledford, Audit Manager
Michelle Philpott, Audit Manager
Doris Hynes, Acting Audit Manager
Dave Robben, Acting Audit Manager
Ken Henderson, Lead Auditor
Allen L. Brooks, Senior Auditor
Andrew J. Burns, Senior Auditor
Julia Moore, Senior Auditor
Gary Pressley, Senior Auditor
Evan Close, Audit Evaluator




                                                                                  Page 19
                      Internal Revenue Service Diversity Demographics
                      Compare Favorably With Other Federal Agencies’
                               Senior Executive Service Ranks



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Chief Technology Officer OS:CTO
IRS Human Capital Officer OS:HC
Executive Director, Equity, Diversity and Inclusion EEO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Large Business and International Division SE:LB
   Commissioner, Small Business/Self-Employed Division SE:S
   Commissioner, Wage and Investment Division SE:W
   Director, Communications and Liaison, Tax Exempt and Government Entities Division
   SE:T:CL
   Chief, Agency-Wide Shared Services OS:A
   Chief Technology Officer OS:CTO
   IRS Human Capital Officer OS:HC




                                                                                  Page 20
        Internal Revenue Service Diversity Demographics
        Compare Favorably With Other Federal Agencies’
                 Senior Executive Service Ranks



                                                  Appendix IV

Management’s Response to the Draft Report




                                                          Page 21
Internal Revenue Service Diversity Demographics
Compare Favorably With Other Federal Agencies’
         Senior Executive Service Ranks




                                                  Page 22
Internal Revenue Service Diversity Demographics
Compare Favorably With Other Federal Agencies’
         Senior Executive Service Ranks




                                                  Page 23
Internal Revenue Service Diversity Demographics
Compare Favorably With Other Federal Agencies’
         Senior Executive Service Ranks




                                                  Page 24
